TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Processes for Determining Whether to Lease
                or Purchase Computer Equipment Need to Be
                                 Improved



                                         August 10, 2007

                              Reference Number: 2007-20-120




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 10, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes for Determining Whether to Lease or
                             Purchase Computer Equipment Need to Be Improved
                             (Audit # 200720009)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) decisions
 to lease or purchase computer equipment. The overall objective of this review was to determine
 whether the IRS had adequate internal controls in place to decide whether to lease or purchase
 computer equipment. This review was part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2007 Information Systems Programs audit plan for reviews on
 using performance and financial information for program and budget decisions.

 Impact on the Taxpayer
 Lease contract files did not contain complete information to conduct a lease versus purchase
 analysis. When all lease versus purchase requirements are not considered and documented, it is
 difficult for IRS executives to make an informed decision on whether to lease or purchase
 computer equipment and taxpayer funds may not be spent wisely.

 Synopsis
 The IRS has over 100,000 employees, many of whom use computers to perform their jobs. It
 spends millions of dollars to purchase and lease computer equipment to process tax records and
 to assist employees in performing their jobs. According to the IRS’ latest financial statements, it
 has approximately $1.7 billion in computer equipment inventory, consisting of mainframe
                        Processes for Determining Whether to Lease or Purchase
                              Computer Equipment Need to Be Improved




computers, minicomputers, servers, desktop and laptop computers, and telecommunications
equipment.1 The IRS purchases the majority of its computer equipment; however, it also
acquires computer equipment using leases, when appropriate. As of December 2006, the IRS
had 4 open computer equipment leases costing approximately $53 million through Fiscal
Year 2010.
The Federal Acquisition Regulation2 requires agencies to consider whether to lease or purchase
equipment based on a case-by-case evaluation of comparative costs and other factors. The IRS
considered certain Federal Acquisition Regulation requirements when determining whether to
lease or purchase computer equipment in each lease we reviewed. For example, purchase
options were considered as well as rental and maintenance costs over the life of the lease.
However, the lease contract files did not contain a well-documented cost/benefit analysis or
complete information to conduct a lease versus purchase analysis. When all requirements are not
considered and documented, it is difficult for IRS executives to make an informed decision on
whether to lease or purchase computer equipment. For example, one contract file shows the
lease payments over the term of one lease exceeded the purchase price at the inception of the
lease by about $1.1 million, indicating a purchase would have been more economical to the IRS.
In addition, one lease contract file did not contain sufficient documentation to accurately
determine or explain adjustments to lease costs when the IRS processed modifications to the
contract. For example, one of the contractor quotes specifically cross-referenced in a contract
modification was $315,537 lower than the price shown on the contract modification, indicating
the IRS paid more for computer equipment than what was quoted by the contractor.

Recommendations
To ensure IRS management has all required information prior to making a lease versus purchase
decision, we recommended the Chief Information Officer and the Chief, Agency-Wide Shared
Services, work together to develop and implement a complete process to ensure all factors in the
Federal Acquisition Regulation are considered and documented. To ensure the IRS has not
overpaid or underpaid the contractor, we recommended the Chief, Agency-Wide Shared
Services, perform a quality review of one lease contract.

Response
IRS management agreed with our recommendations. To ensure IRS management has all
required information prior to making a lease versus purchase decision, the Office of Procurement
will update two Policy and Procedure Memoranda. The updates will include references to the

1
    Financial Audit: IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
2
    48 C.F.R. Section 7.4 (Amended March 2007). See Appendix V for a glossary of terms.
                                                                                                                2
                   Processes for Determining Whether to Lease or Purchase
                         Computer Equipment Need to Be Improved




applicable Federal Acquisition Regulation requirements, such as a cost/benefit analysis, and a
requirement to ensure input, coordination, and consensus is obtained from the Chief Information
Officer regarding the lease/purchase decision prior to coordination with the Chief Financial
Officer. In conjunction with the policy updates, the Office of Procurement will also conduct
training to ensure a complete understanding of the new requirements. In addition, the Chief
Information Officer will issue a directive requiring purchasers of IRS computer equipment to
fully comply with the requirements outlined in the two Office of Procurement memoranda.
To ensure the IRS has not overpaid or underpaid a contractor, the Contracting Officer is working
closely with the contractor to obtain additional supporting documentation. Upon receipt of the
documentation, the Contracting Officer will perform a thorough analysis to determine whether
the IRS has underpaid or overpaid the contractor and will initiate appropriate actions as
determined necessary. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                               3
                           Processes for Determining Whether to Lease or Purchase
                                 Computer Equipment Need to Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Certain Lease Versus Purchase Factors Were Consistently
          Considered and Improvements Are Being Made..........................................Page 3
          All Elements of Compliance With Lease Versus Purchase
          Requirements Were Not Documented ..........................................................Page 3
                    Recommendation 1:..........................................................Page 5

          Accounting for Costs in One Lease Does Not Appear Accurate..................Page 6
                    Recommendation 2:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measures...............................................................Page 10
          Appendix V – Glossary of Terms .................................................................Page 12
          Appendix VI – Management’s Response to the Draft Report ......................Page 13
      Processes for Determining Whether to Lease or Purchase
            Computer Equipment Need to Be Improved




                  Abbreviations

IRS         Internal Revenue Service
                      Processes for Determining Whether to Lease or Purchase
                            Computer Equipment Need to Be Improved




                                          Background

The Internal Revenue Service (IRS) has over 100,000 employees, many of whom use computers
to perform their jobs. It spends millions of dollars to purchase and lease computer equipment to
process tax records and to assist employees in performing their jobs. The Chief Information
Officer is responsible for ownership, management, and control of all IRS computer equipment.
According to the IRS’ latest financial statements, it has approximately $1.7 billion in computer
equipment inventory, consisting of mainframe computers, minicomputers, servers, desktop and
laptop computers, and telecommunications equipment.1 The IRS purchases the majority of its
computer equipment; however, it also acquires computer equipment using leases, when
appropriate. As of December 2006, the IRS had 4 open computer equipment leases costing
approximately $53 million through Fiscal Year 2010.2 Table 1 provides a list of the open
IRS computer equipment leases.
                         Table 1: Open Computer Equipment Leases
                   Computer Equipment Type                     Lease Agreement Amount
           Mid-range Computer Storage Equipment                         $25.6 million
           Mainframe Storage Equipment                                   $3.1 million
           Mainframe Storage Equipment                                   $5.2 million
           Telecommunications Equipment                                 $19.3 million
           Total                                                       $53.2 million
          Source: IRS documents on all four open computer equipment leases as of December 2006.

The Federal Acquisition Regulation3 requires that, prior to leasing or purchasing equipment,
agencies consider whether to lease or purchase equipment based on a case-by-case evaluation of
comparative costs and other factors, such as whether the cumulative leasing costs will exceed the
purchase cost and the advantages of using alternative types and makes of equipment.4 The
Office of Management and Budget also provides guidance that agencies must follow in
comparing the costs to lease and purchase computer equipment. In addition, best practices
suggested by private industry indicate a lease versus purchase analysis provides for more

1
  Financial Audit: IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
2
  Information obtained from IRS lease information on all four open computer equipment lease contracts as of
December 2006. We did not verify the accuracy of this information.
3
  See Appendix V for a glossary of terms.
4
  48 C.F.R. Section 7.4 (Amended March 2007).
                                                                                                     Page 1
                    Processes for Determining Whether to Lease or Purchase
                          Computer Equipment Need to Be Improved



well-informed decision making. The factors often considered by private industry align with
those provided for in the Federal Acquisition Regulation.
This review was performed at the Modernization and Information Technology Services
organization facilities in New Carrollton, Maryland, and the Office of Procurement facilities in
Oxon Hill, Maryland, during the period October 2006 through March 2007. We communicated
the interim results of our review and suggestions for improvement to Modernization and
Information Technology Services organization and Office of Procurement officials on
March 26, 2007. Any changes that have occurred since we concluded our analyses are not
reflected in this report. As a result, this report may not reflect the most current status of lease
and purchase practices within the IRS. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                        Processes for Determining Whether to Lease or Purchase
                              Computer Equipment Need to Be Improved




                                      Results of Review

Certain Lease Versus Purchase Factors Were Consistently
Considered and Improvements Are Being Made
The IRS considered certain Federal Acquisition Regulation requirements5 when determining
whether to lease or purchase computer equipment in each of the four leases we reviewed. For
example, purchase options were considered as well as rental and maintenance costs over the life
of the lease.
The IRS also is considering whether to lease or purchase desktop and laptop computers in Fiscal
Year 2008. An IRS task force has developed a draft Statement of Objectives, which will be
issued to vendors seeking their proposals for providing the computer equipment. Task force
officials informed us they are aware of the Federal Acquisition Regulation requirements
concerning lease versus purchase decisions and will consider these requirements as they proceed.
In addition, the IRS corrected the Information Technology Assets Management System, an
inventory system used to account for computer equipment, to identify its leased computer storage
equipment. When we initially received an inventory report from the IRS, the report did not show
all leased computer storage equipment. The IRS subsequently determined the storage equipment
and costs had been misclassified as purchased equipment in the Information Technology Assets
Management System. The IRS stated the approximate cost of the misclassified storage
equipment was $33.9 million.6

All Elements of Compliance With Lease Versus Purchase
Requirements Were Not Documented
As discussed previously, the Federal Acquisition Regulation requires agencies to consider
whether to lease or purchase equipment based on a cost/benefit analysis and an analysis of other
factors. The four open lease contract files we reviewed did not contain a well-documented
cost/benefit analysis or complete information to conduct a lease versus purchase analysis as
required. Specifically, the following Federal Acquisition Regulation requirements were not
consistently documented in the contract files:
      •   The estimate of the useful life for equipment was not documented in any of the contract
          files. Useful life refers to how long the equipment will be used in the business. The

5
    48 C.F.R. Section 7.4 (Amended March 2007).
6
    See Appendix IV for details.
                                                                                          Page 3
                          Processes for Determining Whether to Lease or Purchase
                                Computer Equipment Need to Be Improved



           longer an organization intends to use a piece of equipment, the more advantageous it is to
           purchase it.
      •    The estimate of trade-in or salvage value, if any, was not documented in any of the
           contract files. This is the amount an organization would receive if it trades the equipment
           or sells the equipment at the end of the lease term or useful life. The overall cost of a
           piece of computer equipment is decreased by the trade-in or salvage value.
      •    The end-of-lease purchase price or a formula to calculate the purchase price was
           documented in only one of the four leases. The lease agreement should contain the
           purchase price of the equipment or provide a formula that could be used to calculate the
           purchase price at the end of the lease. If an organization wishes to keep equipment
           beyond the lease term, the overall cost of the equipment would be increased by the
           purchase price at the end of the lease term.
      •    Consideration of the potential the equipment may become out of date because of
           imminent technological improvements was documented in only one of the four contract
           files. Market research can reveal technological advances for the computer equipment. If
           equipment will become obsolete in the very near future, it may need to be replaced
           quickly. Therefore, a lease may be more advantageous than a purchase of the same
           equipment.
      •    Analysis of the financial and operating advantages of alternative types and makes of
           equipment was documented in only two of the four contract files. Market research can
           provide data showing the advantages of different computer equipment. This provides
           another factor for management to use in deciding whether leasing or purchasing the
           computer equipment is more advantageous.
      •    Contractor price quotes were either missing or incomplete in two of the four contract
           files. Price quotes from contractors are needed to independently determine the lease costs
           and purchase prices of the equipment.
When all requirements are not considered and documented, it is difficult for IRS executives to
make an informed decision on whether to lease or purchase computer equipment and taxpayer
funds may not be spent wisely. Although missing elements of the lease versus purchase analysis
and lack of supporting documentation make reaching conclusions difficult, one contract file
shows the lease payments over the term of one lease exceeded the purchase price at the inception
of the lease by about $1.1 million, indicating a purchase would have been more economical to
the IRS.7
We believe all the requirements were not considered and documented because the IRS does not
have a defined process for gathering and analyzing information to make a well-informed lease

7
    See Appendix IV for details.
                                                                                               Page 4
                   Processes for Determining Whether to Lease or Purchase
                         Computer Equipment Need to Be Improved



versus purchase decision. For example, there were no Internal Revenue Manual guidelines or
other procedures that provide detailed requirements for determining whether to lease or purchase
computer equipment.
Management Action: On January 1, 2007, the Office of Procurement issued to procurement
personnel a revised memorandum that addresses part of the Federal Acquisition Regulation
requirements for making a lease versus purchase decision; however, the memorandum does not
address all of the Federal Acquisition Regulation requirements.

Recommendation
                                                                 Improving lease versus
Recommendation 1: To ensure IRS management has               purchase controls to assist in
all required information prior to making a lease versus     making well-informed decisions
purchase decision, the Chief Information Officer and the        will be especially timely.
                                                             According to recent testimony
Chief, Agency-Wide Shared Services, should work             by the IRS Commissioner, “The
together to develop and implement a complete process to       FY [Fiscal Year] 2008 Budget
ensure all factors in the Federal Acquisition Regulation    requests $81 million to improve
are considered and documented in the contract file when     the IRS’ information technology
making a lease versus purchase decision.                             infrastructure.”

       Management’s Response: IRS management
       agreed with the recommendation. To ensure IRS management has all required
       information prior to making a lease versus purchase decision, the Office of Procurement
       will update two Policy and Procedure Memoranda. Policy and Procedure Memorandum
       7.1, Acquisition Planning, will be updated to include a requirement to address
       lease/purchase decisions in the acquisition plan and to reference the applicable Federal
       Acquisition Regulation requirements, such as a cost/benefit analysis. Policy and
       Procedure Memorandum 7.4, Planning, Acquiring and Managing Equipment and
       Software, will be revised to ensure input, coordination, and consensus is obtained from
       the Chief Information Officer regarding the lease/purchase decision prior to coordination
       with the Chief Financial Officer. In conjunction with the policy updates, the Office of
       Procurement will conduct training to ensure a complete understanding of the new
       requirements.
       The Chief Information Officer will issue a directive requiring purchasers of IRS
       computer equipment to fully comply with the requirements outlined in Office of
       Procurement Policy and Procedure Memoranda 7.1 and 7.4. This directive will also
       include references to the applicable Federal Acquisition Regulation requirements, such as
       a cost/benefit analysis.




                                                                                          Page 5
                          Processes for Determining Whether to Lease or Purchase
                                Computer Equipment Need to Be Improved



Accounting for Costs in One Lease Does Not Appear Accurate
Office of Management and Budget Circular A-123, Management Accountability and Controls,
states agencies should establish and maintain adequate systems of internal controls to provide
reasonable assurance that Federal Government resources are protected from fraud, waste,
mismanagement, or misappropriation. Thus, a good system of internal control requires the
Office of Procurement to maintain contract files that are complete and accurately identify the
cost of leased computer equipment.
A contract modification may be processed after the initial contract is signed. The modification
may adjust the cost of the lease, add or remove leased equipment from the lease, or be just an
administrative change that does not affect either the equipment or the costs. In one lease, the
contract file did not contain sufficient documentation to accurately determine or explain
adjustments to lease costs when the IRS processed modifications to the contract. For example,
the ending cost on one contract modification was $389,368 more than the beginning cost on the
next contract modification. Within the same lease, one of the contractor quotes specifically
cross-referenced in a contract modification was $315,537 lower than the price shown on the
contract modification.8 Therefore, Office of Procurement internal controls did not ensure
accurate contract lease cost information was maintained in the contract file and, as a result, the
IRS may have overpaid or underpaid the contractor.

Recommendation
Recommendation 2: To ensure the IRS has not overpaid or underpaid the contractor, the
Chief, Agency-Wide Shared Services, should perform a quality review of lease contract number
TIRNO-00Z-00008 (delivery orders 0329, 0538, and 0573).
           Management’s Response: IRS management agreed with the recommendation. To
           ensure the IRS has not overpaid or underpaid the contractor, the Contracting Officer is
           working closely with the contractor to obtain additional supporting documentation. Upon
           receipt of the documentation, the Contracting Officer will perform a thorough analysis to
           determine whether the IRS has underpaid or overpaid the contractor and will initiate
           appropriate actions as determined necessary.




8
    See Appendix IV for details.




                                                                                             Page 6
                       Processes for Determining Whether to Lease or Purchase
                             Computer Equipment Need to Be Improved



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS had adequate internal
controls in place to decide whether to lease or purchase computer equipment. To accomplish the
audit objective, we:
I.      Reviewed all four open computer equipment leases to determine whether computer
        equipment was leased or purchased economically, in accordance with the Federal
        Acquisition Regulation.1
        A. Determined whether a cost/benefit analysis was performed.
        B. Reviewed Office of Procurement contract files to determine whether lease
           documentation was maintained as required.
II.     Determined whether the Information Technology Assets Management System had been
        updated to ensure leased computer equipment was accurately recorded as leased
        equipment rather than purchased equipment.
        A. Obtained the Information Technology Assets Management System report containing
           the inventory of leased computer equipment.2
        B. Discussed the process of updating the System to identify the leased computer
           equipment with IRS personnel.
III.    Determined the status of the new process for leasing desktop and laptop computer
        equipment being developed by the Deputy Chief Information Officer.
        A. Obtained the current Statement of Objectives.
        B. Discussed the status of development of the new process with IRS personnel.




1
 See Appendix V for a glossary of terms.
2
 We ensured the types of equipment the IRS stated it leased were represented on the report. Otherwise, we did not
verify the accuracy of this information.
                                                                                                          Page 7
                   Processes for Determining Whether to Lease or Purchase
                         Computer Equipment Need to Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
James A. Douglas, Acting Audit Manager
Phung-Son Nguyen, Acting Audit Manager
Wallace C. Sims, Lead Auditor
Olivia H. DeBerry, Auditor




                                                                                         Page 8
                  Processes for Determining Whether to Lease or Purchase
                        Computer Equipment Need to Be Improved



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
       Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
       Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
       Director, Procurement OS:A:P
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                   Page 9
                       Processes for Determining Whether to Lease or Purchase
                             Computer Equipment Need to Be Improved



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $33.9 million (see page 3).

Methodology Used to Measure the Reported Benefit:
During the audit, we requested that the IRS identify all types of computer equipment leased by
the Modernization and Information Technology Services organization. When we received an
inventory report from the IRS, the report did not show any leased computer storage equipment.
The IRS subsequently determined the storage equipment and costs had been misclassified as
purchased equipment in the Information Technology Assets Management System.1 It stated the
approximate cost of the misclassified storage equipment was $33.9 million.2 Subsequently, the
IRS corrected the Information Technology Assets Management System to show the storage
equipment was leased and not purchased.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Actual; $1.1 million (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed all four open leases for computer equipment leased by the Modernization and
Information Technology Services organization. According to contract file documentation, the
lease payments over the term of one lease exceeded the purchase price at the inception of the
lease by about $1.1 million,3 indicating a purchase would have been more economical to the IRS.




1
  See Appendix V for a glossary of terms.
2
  Information obtained from the Modernization and Information Technology Services organization. We did not
verify the accuracy of this information.
3
  Information obtained from an IRS Office of Procurement contract file. We did not verify the accuracy of this
information.
                                                                                                         Page 10
                    Processes for Determining Whether to Lease or Purchase
                          Computer Equipment Need to Be Improved



Type and Value of Outcome Measure:
•   Cost Savings, Questioned Costs – Actual; $315,537 (see page 6).

Methodology Used to Measure the Reported Benefit:
After we advised the Office of Procurement that some contract modifications were not supported
by contractor price quotes, it provided several contractor price quotes to support the
modifications. However, one of the contractor quotes specifically cross-referenced in a contract
modification was $315,537 lower than the price shown on the contract modification, indicating
the IRS paid more for computer equipment than what was quoted by the contractor.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $389,368 (see page 6).

Methodology Used to Measure the Reported Benefit:
In one lease, the contract file did not contain sufficient documentation to accurately determine or
explain adjustments to lease costs when the IRS processed modifications to the contract. For
example, the ending cost on one contract modification was $389,368 more than the beginning
cost on the next contract modification.




                                                                                           Page 11
                 Processes for Determining Whether to Lease or Purchase
                       Computer Equipment Need to Be Improved



                                                                          Appendix V

                          Glossary of Terms

Term                                   Definition
Best Practice                          A best practice is a technique or
                                       methodology that, through experience and
                                       research, has proven to reliably lead to a
                                       desired result.
Federal Acquisition Regulation         The Federal Acquisition Regulation is
                                       established for the codification and
                                       publication of uniform policies and
                                       procedures for acquisitions by all
                                       executive branch agencies.
Information Technology Assets          The Information Technology Assets
Management System                      Management System is an inventory
                                       system used to account for computer
                                       equipment.
Infrastructure                         Infrastructure is the fundamental structure
                                       of a system or organization. The basic,
                                       fundamental architecture of any system
                                       (electronic, mechanical, social, political,
                                       etc.) determines how it functions and how
                                       flexible it is to meet future requirements.
Statement of Objectives                A Statement of Objectives is a Federal
                                       Government-prepared document
                                       incorporated into a request for offers
                                       (i.e., a solicitation) that states the overall
                                       performance objectives. It is used in
                                       solicitations when the Federal
                                       Government intends to provide the
                                       maximum flexibility to each offeror to
                                       propose an innovative approach.




                                                                                   Page 12
     Processes for Determining Whether to Lease or Purchase
           Computer Equipment Need to Be Improved



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 13
Processes for Determining Whether to Lease or Purchase
      Computer Equipment Need to Be Improved




                                                    Page 14
Processes for Determining Whether to Lease or Purchase
      Computer Equipment Need to Be Improved




                                                    Page 15
